CERTIFICATE OF COMPLIANCE
Case No. 20-828
Caption: Federal Bureau of Investigation, et al.
v. Fazaga, et al.
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 3,364 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 28; 2021.

Sworn to before me on
September 28, 2021
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 0lOS6101366

